LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 15, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

ROBERT DOYLE V. DOUGLAS C. PALMER, IN HIS OFFICIAL CAPACITY AS CLERK
OF THE UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF NEW
YORK

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on April 15,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
The Honorable Noel Francisco
Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

Matthew J. Modafferi
Assistant United States Attorney
United States Attorney's Office
Eastern District of New York
271 Cadman Plaza East
7th Floor
Brooklyn, NY 11201
718-254-6229
Matthew.Modafferi@usdoj.gov

This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 15th day of April 2020.

